APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(July 24, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States Tax Court
(November 2, 2017). . . . . . . . . . . App. 33
Appendix C Order in the United States Tax Court
(July 17, 2017) . . . . . . . . . . . . . . App. 37
Appendix D 26 U.S.C. § 6213(a) . . . . . . . . . . . App. 41
26 U.S.C. § 6214(a) . . . . . . . . . . . App. 43
26 U.S.C. § 6230(a) . . . . . . . . . . . App. 44
26 U.S.C. § 6330(a)-(d) . . . . . . . . App. 47
26 U.S.C. § 6662 (1999) . . . . . . . App. 53
26 U.S.C. § 6664 (1999) . . . . . . . App. 63

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-10394
Agency No. 2828-16
[Filed July 24, 2019]
_________________________________
HIGHPOINT TOWER
)
TECHNOLOGY INC.,
)
Petitioner - Appellant,
)
)
versus
)
)
COMMISSIONER OF INTERNAL )
REVENUE,
)
Respondent - Appellee.
)
________________________________ )
Petition for Review of a Decision of the
U.S. Tax Court
(July 24, 2019)
Before ED CARNES, Chief Judge, ANDERSON and
JULIE CARNES, Circuit Judges.
ANDERSON, Circuit Judge:

App. 2
This is an appeal by Highpoint Tower Technology,
Inc. (“Highpoint”) of the Tax Court’s denial of its
Motion to Restrain Collection of the gross valuationmisstatement penalty, I.R.C. § 6662(h)(1), which was
determined to be applicable during relevant
partnership proceedings.1 The issue in this case is
whether, under the Tax Equity and Fiscal
Responsibility Act of 1982 (“TEFRA”),2 a Tax Court
presiding over partner-level deficiency proceedings has
jurisdiction over a gross valuation-misstatement
1

Although the Tax Court’s order did not resolve all pending claims,
we have appellate jurisdiction over this interlocutory appeal
pursuant to I.R.C. § 7482(a)(3), authorizing an immediate appeal
of “[a]n order of the Tax Court which is entered under authority of
I.R.C. § 6213(a) and which resolves a proceeding to restrain
assessment or collection.” Section 6213(a) authorizes the Tax Court
to enjoin any premature assessment or collection and is treated as
a decision of the Tax Court “subject to the same review by the
United States Court of Appeals as a similar order of a district
court.” § 7482(a)(3).
2

This case focuses on the 1997 amendments to TEFRA. Taxpayer
Relief Act of 1997, Pub. L. No. 105-34, § 1238(a), 111 Stat. 788,
1026–27. The TEFRA partnership procedures applicable in this
case were prospectively repealed by the Bipartisan Budget Act of
2015, Pub. L. No. 114-74, § 1101(a), 129 Stat. 584, 625, effective for
taxable years beginning on or after January 1, 2018. Unless
otherwise indicated, all United States Code and Treasury
Regulations cited in this opinion refer to those in effect at the time
in question, namely the time of Highpoint filing its return.
We recognize that our decision in this case will have little
impact with respect to taxable years beginning on or after
January 1, 2018. However, the instant dispute suggests that our
decision may well be relevant for several years until disputes with
respect to taxable years beginning before January 1, 2018 have all
been resolved.

App. 3
penalty previously determined to be applicable at the
partnership level where the partnership was
determined to be a “sham” and “lacking economic
substance.” The Internal Revenue Code, as in effect
during the relevant time, applicable regulations, and
Supreme Court precedent make clear that the
valuation-misstatement penalty at issue here relates to
an adjustment to a partnership item and, consequently,
is explicitly excluded from the Tax Court’s deficiency
jurisdiction. We hold that a Tax Court presiding over
partner-level deficiency proceedings does not have
jurisdiction over gross valuation-misstatement
penalties imposed against a partnership previously
determined to be a “sham” and “lacking economic
substance.” We accordingly affirm the Tax Court’s
order denying taxpayer’s Motion to Restrain Collection
to the extent it related to the gross valuationmisstatement penalty.
I. BACKGROUND
A. Factual Background
This case involves a tax shelter known as “Son-ofBOSS.” “Like many of its kin, this tax shelter employs
a series of transactions to create artificial financial
losses that are used to offset real financial gains,
thereby reducing tax liability.” Petaluma FX Partners,
LLC v. Comm’r, 591 F.3d 649, 650 (D.C. Cir. 2010),
abrogated on other grounds by United States v. Woods,
571 U.S. 31, 134 S. Ct. 557 (2013).
There are a number of different types of Son-ofBOSS transactions, but what they all have in
common is the transfer of assets encumbered by

App. 4
significant liabilities to a partnership, with the
goal of increasing basis in that partnership. The
liabilities are usually obligations to buy
securities, and typically are not completely fixed
at the time of transfer. This may let the
partnership treat the liabilities as uncertain,
which may let the partnership ignore them in
computing basis. If so, the result is that the
partners will have a basis in the partnership so
great as to provide for large—but not out-ofpocket—losses on their individual tax returns.
Enormous losses are attractive to a select group
of taxpayers—those with enormous gains.
Kligfeld Holdings v. Comm’r, 128 T.C. 192, 194 (2007);
see also I.R.S. Notice 2000–44, 2000–2 C.B. 255.
In 1999, Highpoint joined Arbitrage Trading, LLC
(“Arbitrage”) as a partner. In exchange for a
membership interest in Arbitrage, Highpoint
contributed $62,500 in cash and a pair of Euro options
that it had purchased from AIG International, Inc. By
disregarding the potential obligations under the Euro
options as a potential liability, Highpoint reported its
outside basis as $13,295,980. A few months after
entering the partnership, Highpoint withdrew in
exchange for a liquidated distribution of the Euros. It
then sold the Euros and reported a related capital loss
of $13,111,783 on its 1999 federal income tax return.
B. Procedural Background
Before outlining the legal proceedings that ensued
after Highpoint filed its 1999 income tax return
reflecting artificial losses generated by its participation

App. 5
in this tax shelter, we first pause to outline the
statutory framework governing taxation of
partnerships at the time in question. After this
overview, we outline the partnership-level proceedings
concerning Arbitrage and the partner-level proceedings
concerning Highpoint that have spanned the twenty
years or so since Highpoint filed its income tax return
reporting the losses at issue, which ultimately resulted
in this appeal.
1. Overview of statutory scheme
“A partnership does not pay federal income taxes;
instead, its taxable income and losses pass through to
the partners.” United States v. Woods, 571 U.S. 31, 38,
134 S. Ct. 557, 562 (2013) (citing I.R.C. § 701).
Partnerships file informational returns, § 6031(a), and
individual partners report their shares of the
partnership’s income or losses on their respective
income tax returns, § 702. Prior to TEFRA
the IRS had no way of correcting errors on a
partnership’s return in a single, unified
proceeding. Instead, tax matters pertaining to
all the members of a partnership were dealt
with just like tax matters pertaining only to a
single taxpayer: through deficiency proceedings
at the individual-taxpayer level. See generally
§§ 6211–6216 (2006 ed. and Supp. V). Deficiency
proceedings require the IRS to issue a separate
notice of deficiency to each taxpayer, § 6212(a)
(2006 ed.), who can file a petition in the Tax
Court disputing the alleged deficiency before
paying it, § 6213(a). Having to use deficiency
proceedings for partnership-related tax matters

App. 6
led to duplicative proceedings and the potential
for inconsistent treatment of partners in the
same partnership. Congress addressed those
difficulties by enacting [TEFRA]. 96 Stat. 648
(codified as amended at 26 U.S.C. §§ 6221–6232
(2006 ed. and Supp. V)).
Woods, 571 U.S. at 38, 134 S. Ct. at 562–63. TEFRA
created a two-step process for addressing partnershiprelated tax matters:
First, the IRS must initiate proceedings at the
partnership level to adjust “partnership items,”
those relevant to the partnership as a whole.
§§ 6221, 6231(a)(3). It must issue [a Final
Partnership Administrative Adjustment]
notifying the partners of any adjustments to
partnership items, § 6223(a)(2), and the partners
may seek judicial review of those adjustments,
§ 6226(a)–(b). Once the adjustments to
partnership items have become final, the IRS
may undertake further proceedings at the
partner level to make any resulting
“computational adjustments” in the tax liability
of the individual partners. § 6231(a)(6). Most
computational adjustments may be directly
assessed against the partners, bypassing
deficiency proceedings and permitting the
partners to challenge the assessments only in
post-payment refund actions. § 6230(a)(1), (c).
Deficiency proceedings are still required,
however, for certain computational adjustments
that are attributable to “affected items,” that is,
items that are affected by (but are not

App. 7
themselves) partnership items. §§ 6230(a)(2)(A)
(i), 6231(a)(5).
Id. at 39, 134 S. Ct. at 563. With this framework in
mind, we next outline the partnership-level
proceedings concerning Arbitrage.
2. Partnership-level proceedings
In October 2005, the IRS issued a Notice of Final
Partnership Administrative Adjustment (“FPAA”) to
Arbitrage, proposing adjustments to partnership items
for the 1999 tax year. The FPAA reported that the IRS
had determined that Arbitrage “was formed and
availed of solely for the purposes of tax avoidance by
artificially overstating basis in the partnership
interests of its purported partners.” The IRS had
determined that Arbitrage “was a sham” and “lacked
economic substance.” Accordingly, the IRS had
determined that (a) Arbitrage would be disregarded
and all transactions engaged in by the purported
partnership would be treated as engaged in directly by
its purported partners; (b) the foreign currency options
would be treated as if never contributed to Arbitrage;
(c) the purported partners would not be treated as
partners of Arbitrage; and (d) contributions to
Arbitrage would be adjusted to reflect the partnership’s
or purported partner’s income. Purported partners
were determined to have “not established adjusted
bases in their respective partnership interests in an
amount greater than zero.” The IRS further
determined, among other things, that “a 40 percent
penalty shall be imposed on the portion of any
underpayment attributable to the gross valuation
misstatement.”

App. 8
I.R.C. § 6662(a) imposes a 20% accuracy-related
penalty to the portion of underpaid tax attributable to,
among other things, negligence, any substantial
understatement of income tax, or any substantial
valuation misstatement. § 6662(a), (b)(1)–(3). The
penalty increases to 40% if there is a gross valuation
misstatement. § 6662(h)(1). “A gross valuation
misstatement exists if ‘the value of any property (or the
adjusted basis of any property) claimed on any return
of tax . . . is [400] percent or more of the amount
determined to be the correct amount of such valuation
or adjusted basis (as the case may be).’” Gustashaw v.
C.I.R., 696 F.3d 1124, 1135 (11th Cir. 2012) (citing
§ 6662(e)(1)(A), (h)(2)(A)(i)). A treasury regulation
relatedly provides:
The value or adjusted basis claimed on a
return of any property with a correct value or
adjusted basis of zero is considered to be 400
percent or more of the correct amount. There is
a gross valuation misstatement with respect to
such property, therefore, and the applicable
penalty rate is 40 percent.
26 C.F.R. § 1.6662-5(g); see also Gustashaw, 696 F.3d
at 1135.
In March 2006, Arbitrage sought judicial review of
the FPAA pursuant to § 6226(a). In October 2014, the
Court of Federal Claims issued an amended judgment
sustaining all adjustments of partnership items
contained in the FPAA and stating that the
explanations offered in the FPAA are “conceded to be
correct.” It sustained all penalties contained in the
FPAA but noted that “partners of Arbitrage, LLC

App. 9
reserve their right to pursue partner-level defenses to
these penalties.” This concluded the partnership-level
proceedings involving Arbitrage. We next outline the
partner-level proceedings initiated by Highpoint as
well as other interactions between the parties during
that timeframe.
3. Partner-level proceedings
In November 2015, the IRS issued a Notice of
Deficiency to Highpoint. This notice reflected a
deficiency of $5,222,675, based upon the following
adjustments: (1) a $13,191,937 increase in capital gains
income representing the disallowed short-term capital
loss for the sale of the Euro option distributed from
Arbitrage when Highpoint left the partnership, (2) a
disallowance of $1,573,727 in claimed professional fee
deductions relating to these transactions, and (3) an
increase of $72,053 in “other income” representing a
disallowed loss from the partnership. The notice also
reflected a 40% gross valuation-misstatement penalty
pursuant to I.R.C. § 6662(h) amounting to $2,089,070.
Highpoint filed a petition in the Tax Court for
redetermination of its deficiency in February 2016.3
A few days later, the IRS issued a Notice of Tax Due
reflecting the same amount contained in the Notice of
Deficiency as well as $12,755,355.16 in interest,
resulting in a total of $20,067,100.16 due. In June

3

Highpoint’s Notice of Appeal only seeks review of the Tax Court’s
July 17, 2017 order denying Highpoint’s Motion to Restrain to the
extent that it related to the valuation-misstatement penalty.
Because Highpoint’s petition for redetermination of its deficiency
is not at issue in this appeal, we do not discuss it further.

App. 10
2016, the IRS notified Highpoint that it intended to
levy Highpoint’s property and apply the proceeds to the
$20,067,100.16 owed. A few days after that, Highpoint
filed a Motion to Restrain Collection in the United
States Tax Court. In July 2016, the IRS objected to
Highpoint’s Motion to Restrain Collection. The IRS
asserted that, while the Tax Court had jurisdiction over
adjustments relating to capital gains income and the
professional fee deductions, it did not have jurisdiction
over the valuation-misstatement penalty and the
adjustment to “other income.” In September 2016, the
IRS moved to dismiss the portions of the case before
the Tax Court relating to the adjustment to other
income and the valuation-misstatement penalty,
asserting that neither were subject to deficiency
proceedings under I.R.C. § 6230(a).
On July 17, 2017, the Tax Court ordered further
briefing on the adjustment to other income issue and
denied Highpoint’s Motion to Restrain Collection to the
extent that it related to the penalty. As to the
valuation-misstatement penalty, the Tax Court stated:
In United States v. Woods, 134 S. Ct. 557,
565–566 (2013), the Supreme Court stated that
where the partnership is a sham, no partnerlevel determinations are needed to determine
outside basis because “once the partnerships
were deemed not to exist for tax purposes, no
partner could legitimately claim an outside basis
greater than zero.” See also Greenwald v.
Commissioner, 142 T.C. 308, 315 (2014). It is not
possible for petitioner to have an outside basis
greater than zero in Arbitrage, a partnership

App. 11
that does not exist for tax purposes. The final
decision in the partnership-level proceeding
applied the section 6662 penalty. It is well
settled that the penalty may be directly assessed
as a computational adjustment that we lack
jurisdiction over, notwithstanding the need for
partner-level determinations. See sec.
6230(a)(2), (c)(4); Woods, 571 S. Ct. at 565, n.2;
Thompson v. Commissioner, T.C. Memo.
2014–154 at *8; Logan Tr., 616 Fed. Appx. 426
(D.C. Cir. 2015).
In August 2017, Highpoint filed a Motion for
Reconsideration of the Tax Court’s July 17 order. In
support of its motion, Highpoint asserted that:
In the July 17 Order, the Court denied
Petitioner’s Motion to Restrain Assessment with
respect to the gross valuation misstatement
penalty. To assert the gross valuation
misstatement penalty, the Code requires a
comparison of the correct value versus the
reported value of the adjusted basis of the Euros
that Highpoint sold in 1999. A determination of
the correct value, which Respondent admits
must be determined in a deficiency proceeding,
cannot be completed without the Court first
completing partner-level factual determinations.
In November 2017, the Tax Court denied Highpoint’s
Motion for Reconsideration and granted the IRS’s
motion to dismiss in full.4 As to the valuation4

The Tax Court held that it lacked jurisdiction not only over the
valuation-misstatement penalty but also over the “other income.”

App. 12
misstatement penalty, the Tax Court determined that
Highpoint had not established that reconsideration
should be granted and further noted that:
Deficiency proceedings do not apply to the
assessment of penalties determined to be
applicable at the partnership level, regardless of
whether partner level determinations are
required to assess the penalty. I.R.C. sec.
6230(a)(2)(A)(i); sec. 301.6231(a)(6)-1, Proced. &
Admin. Regs. In the Amended Judgment
relating to prior partnership proceeding
(Arbitrage Trading, LLC v. United States,
docket No. 06-202T), partnership items,
including the application of the penalty, were
conclusively determined. See I.R.C. secs. 6221
and 6320(c)(4). As such, this Court lacks
jurisdiction over the penalty, and we stand by
our decision.
Highpoint now appeals the Tax Court’s July 17 order
denying its Motion to Restrain Collection to the extent
that it found it had no jurisdiction over the gross
valuation-misstatement penalty.
II. ISSUE
The sole issue in this appeal is whether the Tax
Court erred in denying Highpoint’s Motion to Restrain

However, on appeal, Highpoint challenges the Tax Court’s ruling
only with respect to the valuation-misstatement penalty.
Accordingly, this opinion considers only the issue of whether the
Tax Court had jurisdiction over the valuation-misstatement
penalty.

App. 13
Collection of the gross valuation-misstatement penalty,
and in holding that it lacked deficiency jurisdiction
over the penalty.
III. STANDARD OF REVIEW
We review the Tax Court’s legal conclusions de
novo, and its factual findings for clear error. See
Campbell v. Comm’r, 658 F.3d 1255, 1258 (11th Cir.
2011). “[W]e review questions of subject matter
jurisdiction and statutory interpretation de novo.”
Lindley v. F.D.I.C., 733 F.3d 1043, 1050 (11th Cir.
2013).
IV. DISCUSSION
Highpoint’s primary argument on appeal is that,
because the valuation-misstatement penalty is an
“affected item[] which require[s] partner level
determinations,” it is necessarily subject to deficiency
jurisdiction. Highpoint contends that, because the
penalty at issue is an “affected item[] which require[s]
partner level determinations,” it cannot also be a
“penalt[y] . . . that relate[s] to adjustments to
partnership items.” See I.R.C. § 6230(a)(2)(A)(i). For
the reasons that follow, we conclude that the relevant
statutory text, applicable regulations, and Supreme
Court precedent make clear that Highpoint’s
arguments are without merit, and that the Tax Court
correctly held that it did not have deficiency
jurisdiction over the penalty. We begin our analysis by
focusing on the statutory provision that specifically
addresses which partnership-related matters are
subject to Tax Court deficiency jurisdiction—and which
are not. See I.R.C. § 6230(a).

App. 14
A. Statutory Deficiency Jurisdiction
1. I.R.C. § 6230(a)(1)
Internal Revenue Code Chapter 63, subchapter B
provides for Tax Court deficiency proceedings. See
I.R.C. §§ 6211–6216 (entitled “Deficiency Procedures in
the Case of Income, Estate, Gift, and Certain Excise
Taxes”). When the IRS issues a notice of deficiency,
notifying a taxpayer that the IRS has determined that
additional taxes are due, a taxpayer ordinarily has an
option to pay the additional taxes and file a claim for
refund, or to challenge the IRS determination without
prepayment by filing a petition to the Tax Court
seeking a redetermination of the deficiency pursuant to
the Tax Court’s deficiency jurisdiction. See 13 Mertens
Law of Federal Income Taxation § 49C:1 (2019) (“Upon
receipt of a notice of deficiency, a taxpayer may either
file a petition with the Tax Court to contest the amount
of the deficiency or pay the amount of the deficiency
and sue for a refund in either the Claims Court or the
appropriate District Court.”). However, that general
provision is modified by I.R.C. § 6230(a), which
specifically addresses the partnership-related issues
before us and specifically provides that some
partnership-related matters are within the Tax Court’s
deficiency jurisdiction, and some are not. We begin
with § 6230(a)(1), which provides:
Except as provided in paragraph (2) or (3),
subchapter B of this chapter shall not apply to
the assessment or collection of any
computational adjustment.

App. 15
From § 6230(a)(1) alone we know that Tax Court
deficiency proceedings (i.e., subchapter B) will not
apply to—or in other words, the Tax Court will not
have deficiency jurisdiction over—assessment or
collection of any computational adjustments other than
those provided for in paragraphs two or three of
§ 6230(a)(1). We must therefore determine whether the
penalty at issue is a computational adjustment, and if
so, whether it is otherwise provided for in § 6230(a)(2)
or (a)(3).
We pause to define statutory terms necessary to
understand § 6230(a)(1). “Computational adjustment”
is defined as “the change in the tax liability of a
partner which properly reflects the treatment under
this subchapter of a partnership item. All adjustments
required to apply the results of a proceeding with
respect to a partnership under this subchapter to an
indirect partner shall be treated as computational
adjustments.” I.R.C. § 6231(a)(6). In turn, a
“partnership item” is defined as “any item required to
be taken into account for the partnership’s taxable year
under any provision of subtitle A to the extent
regulations prescribed by the Secretary provide that,
for purposes of this subtitle, such item is more
appropriately determined at the partnership level than
at the partner level.” § 6231(a)(3).
Considering these definitions in conjunction with
the text of § 6230(a)(1), we know that if a change in tax
liability of a partner reflects treatment of a partnership
item (an item required to be taken into account for the
partnership’s taxable year and more appropriately
determined at the partnership level), then deficiency

App. 16
proceedings will not apply to the assessment of that
adjustment unless otherwise provided for in
§ 6230(a)(2) or (a)(3). Treasury regulations in effect at
the time in question state that “[a]ny penalty, addition
to tax, or additional amount that relates to an
adjustment to a partnership item, shall be determined
at the partnership level.” Treas. Reg. § 301.6221-1T(c).
The FPAA issued by the IRS to Arbitrage stated that
the valuation-misstatement penalty at issue relates to
adjustments to partnership items. It provided in
pertinent part that “at a minimum, the accuracyrelated penalty under Section 6662(a) of the Internal
Revenue Code applies to all underpayments of tax
attributable to adjustments of partnership items of
Arbitrage Trading, LLC.”
We agree with the IRS’s characterization of the
penalty at issue as relating to an adjustment to a
partnership item. Treasury Regulation
§ 301.6231(a)(3)-1(b) includes within its “partnership
item” definition “the legal and factual determinations
that underlie the determination of the amount, timing,
and characterization of items of income, credit, gain,
loss, deduction, etc.” Treas. Reg. § 301.6231(a)(3)-1(b)
(emphasis added). The underlying legal determination
that a partnership is a sham lacking economic
substance—which caused the penalty to be applied in
this case—falls within this “partnership item”
definition. See id. (listing as examples of such legal and
factual determinations deemed “partnership items,”
among other things, “whether partnership activities
have been engaged in with the intent to make a
profit”); accord RJT Invs. X v. Comm’r, 491 F.3d 732,
737–38 (8th Cir. 2007) (holding that the determination

App. 17
that a partnership is a sham is a “legal determination”
that “falls squarely within” the definition of a
partnership item pursuant to Treas. Reg.
§ 301.6231(a)(3)-1(b)). Indeed, as demonstrated in Part
IV.B. below, the Supreme Court made clear in United
States v. Woods that a gross valuation-misstatement
penalty—just like the one at issue in this case—relates
to a determination that the underlying partnerships
are shams and, in turn, relates to an adjustment to a
partnership item. See Woods, 571 U.S. at 39–44, 134
S. Ct. at 563–66. For a more detailed discussion of
Woods, see infra Part IV.B.5 Accordingly, the penalty in
question relates to an adjustment to a partnership item
and is therefore a computational adjustment not

5

Many other courts have treated sham determinations, which can
justify imposing a valuation-misstatement penalty, as relating to
adjustments to partnership items. See, e.g., Petaluma FX
Partners, LLC v. Comm’r, 792 F.3d 72, 77 (D.C. Cir. 2015)
(“[C]ourts retain jurisdiction in partnership-level proceedings to
determine whether any partnership-level adjustments—such as
the determination in this case that Petaluma was a sham—carry
‘the potential to trigger a penalty’ against the partners.” (quoting
Woods, 571 U.S. at 41, 134 S. Ct. at 565)); NPR Invs., L.L.C. ex rel.
Roach v. United States, 740 F.3d 998, 1010 (5th Cir. 2014) (holding
that the partnership-level court had jurisdiction to adjudicate the
applicability of the valuation-misstatement penalties where the
partnership was a sham, and stating that “we conclude that the
District Court had jurisdiction to determine the applicability of the
valuation-misstatement penalty—to determine, that is, whether
the partnerships’ lack of economic substance (which all agree was
properly decided at the partnership level) could justify imposing a
valuation-misstatement penalty on the partners.” (quoting Woods,
571 U.S. at 42, 137 S. Ct. at 564)); RJT Invs., 491 F.3d at 737–38
(holding that a determination that a partnership is a sham is a
partnership item).

App. 18
subject to deficiency jurisdiction under § 6230(a)(1)
unless otherwise provided for.
The plain text of § 6230(a)(1), when read in
conjunction with definitional statutory provisions and
applicable regulations, makes clear that unless
otherwise provided in § 6230(a)(2) or (a)(3), the Tax
Court does not have deficiency jurisdiction over the
penalty at issue. Highpoint argues that
§ 6230(a)(2)(A)(i) nonetheless provides the Tax Court
deficiency jurisdiction over the penalty because the
penalty is an “affected item[] which require[s] partner
level determinations.” We address that argument next.6
2. I.R.C. § 6230(a)(2)(A)(i)
Section 6230(a)(2)(A) provides that:
Subchapter B shall apply to any deficiency
attributable to affected items which require
partner level determinations (other than
penalties, additions to tax, and additional
amounts that relate to adjustments to
partnership items) . . . .
I.R.C. § 6230(a)(2)(A)(i). From the face of
§ 6230(a)(2)(A)(i), we know that, even with respect to
affected items requiring partner-level determinations,
Tax Court deficiency proceedings will not apply to—or
in other words, will not have jurisdiction over—
“penalties . . . that relate to adjustments to partnership
items.” Highpoint’s argument focuses on the penalty
6

Highpoint does not argue that other provisions of § 6230(a)(2) or
(a)(3) provide the Tax Court with deficiency jurisdiction over the
penalty.

App. 19
being an “affected item[] which require[s] partner level
determinations,” but this argument ignores the
exclusion within the same sentence. The parenthetical
exclusion makes clear that, even if the deficiency at
issue is attributable to an affected item which requires
partner-level determinations, deficiency proceedings
will not apply to “penalties . . . relat[ing] to
adjustments to partnership items.” § 6230(a)(2)(A)(i).
The issue, again, is whether the penalty at issue
“relates to [an] adjustment[] to [a] partnership item.”
“Affected item” is defined as “any item to the extent
such item is affected by a partnership item,”
§ 6231(a)(5), while “partnership item” is defined as
“any item required to be taken into account for the
partnership’s taxable year under any provision of
subtitle A to the extent regulations prescribed by the
Secretary provide that, for purposes of this subtitle,
such item is more appropriately determined at the
partnership level than at the partner level,”
§ 6231(a)(3). As outlined above, Treas. Reg.
§ 301.6231(a)(3)-1(b) and the Supreme Court’s decision
in Woods make clear that the penalty in question
relates to an adjustment to a partnership item.
Accordingly, the penalty is not subject to Tax Court
deficiency jurisdiction under § 6230(a)(2)(A)(i).7
7

The Tax Court has frequently held that penalties deemed to
apply in partnership-level proceedings are not subject to Tax Court
deficiency jurisdiction under § 6230(a)(2)(A)(i). See, e.g.,
Domulewicz v. Comm’r, 129 T.C. 11, 21–23 (2007) (“Under a plain
reading of [§ 6230(a)(2)(A)(i)], the effect of the amendment was to
remove partnership-item penalties from the deficiency procedures
effective for partnership taxable years ending after August 5,
1997.”), aff’d in part remanded in part on other grounds Desmet v.

App. 20
In addition to contradicting the plain language of
§ 6230(a)(2)(A)(i), Highpoint’s argument that the penalty
is subject to Tax Court deficiency jurisdiction because it
is an “affected item[] which require[s] partner level
determinations” is undermined by Treasury Regulations
in effect during the time in question.
Changes in a partner’s tax liability with respect to
affected items that require partner level
determinations . . . are computational adjustments
subject to deficiency procedures. Nevertheless, any
penalty, addition to tax, or additional amount that
relates to an adjustment to a partnership item may
be directly assessed following a partnership
proceeding, based on determinations in that
proceeding, regardless of whether partner level
determinations are required.
Treas. Reg. § 301.6231(a)(6)-1T(a)(2). This only
confirms what is unambiguous from the plain meaning
of § 6230(a)(1) and (a)(2)(A)(i)—namely, that penalties
relating to adjustments to partnership items are
treated differently (i.e., not subject to Tax Court
deficiency jurisdiction) even if they are affected items
requiring partner level determinations. See also Woods,
571 U.S. at 41, 134 S. Ct. at 564 (holding that “a
penalty can relate to a partnership-item adjustment
even if the penalty cannot be imposed without
additional, partner-level determinations”).

Comm’r, 581 F.3d 297 (6th Cir. 2009); Fears v. Comm’r, 129 T.C.
8, 10 (2007); Estate of Simon v. Comm’r, T.C. Memo. 2013-174,
2013 WL 3879804, at *4 (2013); Bedrosian v. Comm’r, T.C. Memo.
2007-376, 2007 WL 4526479, at *3 (2007).

App. 21
Highpoint argues that preventing it from
addressing the penalty in Tax Court deficiency
proceedings—and forcing it to raise challenges to the
penalty in refund or Collection Due Process (“CDP”)
proceedings instead8—is duplicative and contrary to
the congressional intent behind the 1997 amendments
to TEFRA that sought to streamline partnership tax
8

Even though Highpoint may not challenge the penalty in the
instant partner-level Tax Court deficiency proceedings, it still has
the opportunity to raise partner-level defenses regarding the
penalty (including the good faith and reasonable cause defenses it
alludes to throughout its brief) in refund proceedings. See
§ 6230(c)(4) (“[T]he partner shall be allowed to assert any partner
level defenses that may apply or to challenge the amount of the
computational adjustment.”). Highpoint argues that it would be
unfair not to provide Tax Court deficiency jurisdiction over the
penalty because that would require Highpoint, and similarly
situated taxpayers, to pay large sums of tax liability before
challenging the penalty in refund proceedings. “[E]ven if we agree
that the statute allows for harsh or unfair consequences, that does
not give us license to ignore the plain meaning of the text. We will
look beyond the unambiguous plain meaning of the text only if the
plain meaning produces absurd results.” Patel v. U.S. Attorney
Gen., 917 F.3d 1319, 1330 (11th Cir. 2019). We will not ignore the
plain meaning of I.R.C. § 6230 in this case.
Moreover, there is an opportunity for Highpoint to challenge
the penalty other than through refund proceedings and prior to
payment—i.e., in a prepayment proceeding other than refund
proceedings. Highpoint can challenge the penalty in a prepayment
Collection Due Process (“CDP”) hearing as provided for by
§ 6330(a)(1), which states “[n]o levy may be made on any property
or right to property of any person unless the Secretary has notified
such person in writing of their right to a hearing under this section
before such levy is made.” At this hearing, Highpoint may raise
“challenges to the underlying tax liability for any tax period if the
person . . . did not otherwise have an opportunity to dispute such
tax liability.” § 6330(c)(2)(B).

App. 22
litigation. “We have . . . said . . . frequently that ‘[w]hen
the import of words Congress has used is clear . . . we
need not resort to legislative history, and we certainly
should not do so to undermine the plain meaning of the
statutory language.’” CBS Inc. v. PrimeTime 24 Joint
Venture, 245 F.3d 1217, 1222 (11th Cir. 2001) (quoting
Harris v. Garner, 216 F.3d 970, 976 (11th Cir. 2000)
(en banc)). Because we find that § 6230(a)(1) and
(a)(2)(A)(i) clearly exclude the penalty at issue from
Tax Court deficiency jurisdiction, we need not entertain
Highpoint’s legislative intent arguments.9
9

Highpoint also argues that “imposing the 40 percent basis
penalty before determining the basis or the resulting deficiency
works an algebraic absurdity” because it is impossible to calculate
the penalty without first determining the basis and deficiency in
partner-level deficiency proceedings. We are not convinced that
holding that there is no Tax Court deficiency jurisdiction over the
penalty produces such absurd results as to justify ignoring the
unambiguous plain meaning of § 6230. See Patel, 917 F.3d at 1330.
The Supreme Court in Woods noted that the district court
presiding over partnership-level proceedings “was not required to
shut its eyes to the legal impossibility of any partner’s possessing
an outside basis greater than zero in a partnership that, for tax
purposes, did not exist.” Woods, 571 U.S. at 42, 134 S. Ct. at 565.
The Woods Court also noted in dicta that “it is not readily
apparent why additional partner-level determinations would be
required before adjusting outside basis in a sham partnership.” Id.
at 42 n.2, 134 S. Ct. at 565 n.2 (citing Petaluma, 591 F.3d at 655
(“If disregarding a partnership leads ineluctably to the conclusion
that its partners have no outside basis, that should be just as
obvious in partner-level proceedings as it is in partnership-level
proceedings”)).
We acknowledge the problem to which Highpoint points. The
applicability of the 40% penalty has been determined during
partnership-level proceedings. However, that 40% penalty is to be
applied to the appropriate portion of the deficiency which

App. 23
We conclude that the Internal Revenue Code
unambiguously excludes from the Tax Court’s
deficiency jurisdiction Highpoint’s challenge to the
penalty at issue. Nevertheless, Highpoint relies on
United States v. Woods to argue that the Tax Court has
jurisdiction over the penalty. Quite contrary to
Highpoint’s argument, however, Woods only provides
further and significant support for what the Internal
Revenue Code makes unambiguous—that the Tax
Court does not have deficiency jurisdiction over the
penalty.
B. United States v. Woods
The Supreme Court, in United States v. Woods,
addressed a related but distinct question of whether
“the penalty for tax underpayments attributable to
valuation misstatements, 26 U.S.C. § 6662(b)(3), is
applicable to an underpayment resulting from a basisinflating transaction subsequently disregarded for lack
of economic substance.” Woods, 571 U.S. at 33, 134 S.
Ct. at 560. Woods arose from partnership-level
proceedings considering an appeal of an FPAA. Id. at

Highpoint is ultimately determined to owe. That deficiency amount
would ordinarily be determined in Tax Court deficiency
proceedings. It might well have been preferable, in an ideal world,
had Congress permitted the precise amount of the penalty to be
determined also in the same deficiency proceedings. However,
Congress clearly did not permit that. But, there are at least two
other partner-level proceedings available in which the appropriate
deficiency and precise amount of the penalty can be
determined—CDP proceedings or refund proceedings. In any
event, the problem about which Highpoint complains falls far short
of the kind of absurdity that might warrant assuming that
Congress intended the opposite of which it plainly stated.

App. 24
37, 134 S. Ct. at 562. The respondent taxpayer in
Woods participated in a Current Options Bring Reward
Alternatives (“COBRA”) tax shelter. Id. at 34, 134
S. Ct. at 560. This tax shelter used offsetting options to
give respondent taxpayer an artificially high basis in
partnership interests so that he could claim significant
losses on paper, thereby reducing taxable income. Id. at
33–35, 134 S. Ct. at 560–61. The IRS did not treat
these COBRA-generated losses as valid and issued an
FPAA stating that the partnerships lacked economic
substance, the partnerships would be disregarded for
tax purposes, and the losses would be disallowed. Id. at
36–37, 134 S. Ct. at 561–62. Having determined that
there was no partnership for tax purposes, the IRS also
concluded that the partners had “not established
adjusted bases in their respective partnership interests
in an amount greater than zero” and that any
underpayment of tax would be subject to the 40% gross
valuation-misstatement penalty—the exact same
penalty at issue in this case. Id. at 37, 134 S. Ct. at
562.
Pursuant to § 6226(a)(2), respondent (the tax
matters partner for the partnerships) appealed the
FPAA’s determination that the 40% penalty was
applicable when the underlying transaction is
disregarded for lack of economic substance. Id. Both the
district court and the court of appeals held that,
although the partnerships were shams, the valuationmisstatement penalty did not apply. Id. The Supreme
Court, in addition to considering this question, also
ordered briefing on whether the district court presiding
over the partnership-level proceedings had “jurisdiction
to consider the valuation-misstatement penalty.” Id. at

App. 25
37–38, 134 S. Ct. at 562. The jurisdictional question
before the Court in Woods is distinct from the one
currently before us because it considered whether the
district court had partnership-level jurisdiction over a
valuation-misstatement penalty, whereas we are asked
to determine whether the Tax Court had partner-level
deficiency jurisdiction over a valuation-misstatement
penalty. Despite the different procedural postures,
Woods’s discussion of the same penalty at issue in this
case is instructive.
Under TEFRA, a court presiding over a partnershiplevel proceeding has jurisdiction to determine both
partnership items and “the applicability of any penalty
. . . which relates to an adjustment to a partnership
item.” § 6226(f). We take note that the phrase “penalty
. . . which relates to an adjustment to a partnership
item” that appears in § 6226(f) is nearly identical to the
phrase “penalties . . . that relate to adjustments to
partnership items” in § 6230(a)(2)(A)(i), which is at
issue in this case. The Woods Court framed the
jurisdictional issue before it as follows:
As both sides agree, a determination that a
partnership lacks economic substance is an
adjustment to a partnership item. Thus, the
jurisdictional question here boils down to
whether the valuation-misstatement penalty
“relates to” the determination that the
partnerships Woods and McCombs created were
shams.
Woods, 571 U.S. at 39, 134 S. Ct. at 563. The
Government argued that the valuation-misstatement
penalty “logically and inevitably” flowed from the

App. 26
economic-substance (or sham) determination. See id. at
39–40, 134 S. Ct. at 563. Because there can be no
outside basis in a sham partnership, the Government
contended, any partner who reports an outside basis
greater than zero commits a valuation misstatement.
See id. The respondent taxpayer argued that, because
outside basis is an affected item and not a partnership
item, a penalty resting on a misstatement of an outside
basis could not be considered at the partnership level.
See id. at 40, 134 S. Ct. at 563. The Court summarized
his argument as follows: “He maintains, in short, that
a penalty does not relate to a partnership-item
adjustment if it ‘requires a partner-level
determination,’ regardless of ‘whether or not the
penalty has a connection to a partnership item.’” Id.
This argument made by the taxpayer in Woods is
nearly identical to the one Highpoint advances before
this Court—i.e., that because the penalty at issue is an
affected item requiring partner-level determinations, it
cannot also relate to adjustments to partnership items.
The Court rejected the taxpayer’s arguments, and
held that
TEFRA gives courts in partnership-level
proceedings jurisdiction to determine the
applicability of any penalty that could result
from an adjustment to a partnership item, even
if imposing the penalty would also require
determining affected or non-partnership items
such as outside basis.
Id. at 41, 134 S. Ct. at 564. The Court explained that
even though every penalty must be imposed after
partner-level determinations are made at the partner

App. 27
level, “TEFRA provides that the applicability of some
penalties must be determined at the partnership level.
The applicability determination is therefore inherently
provisional; it is always contingent upon
determinations that the court in a partnership-level
proceeding does not have jurisdiction to make.”10 Id. at
41, 134 S. Ct. at 564. The Court in Woods explained
that several provisions of TEFRA make clear that
courts presiding over partnership-level proceedings
have jurisdiction to consider the applicability of some
penalties that cannot be imposed without partner-level
inquiries. Id.

10

Highpoint focuses on this passage from Woods in arguing that
imposing the penalty is merely provisional at the partnership
stage and that the penalty can actually be imposed only after
determining the outside basis and deficiency in partner-level
proceedings. By stating that the partnership-level determination
that a penalty is “provisional,” however, the Woods Court was
indicating that the district court did not have jurisdiction to
consider partner-level defenses in a partnership-level proceeding.
The Court did not state that the “provisional” nature of this
penalty at the partnership level indicated that partner-level Tax
Court deficiency proceedings would have jurisdiction. In other
words, the Court’s suggestion that the penalty would have to be
actually imposed in partner-level proceedings did not indicate that
the appropriate partner-level forum would be Tax Court deficiency
proceedings. There are at least two other partner-level
proceedings—refund proceedings and CDP proceedings. Indeed,
previously in the opinion, the Woods Court indicated that “[m]ost
computational adjustments may be directly assessed against the
partners, bypassing deficiency proceedings and permitting the
partners to challenge the assessments only in post-payment refund
actions.” Woods, 571 U.S. at 39, 134 S. Ct. at 563 (citing
§ 6230(a)(1), (c)).

App. 28
One requires the IRS to use deficiency
proceedings for computational adjustments that
rest on “affected items which require partner
level determinations (other than penalties . . .
that relate to adjustments to partnership
items).” § 6230(a)(2)(A)(i). Another states that
while a partnership-level determination
“concerning the applicability of any penalty . . .
which relates to an adjustment to a partnership
item” is “conclusive” in a subsequent refund
action, that does not prevent the partner from
“assert[ing] any partner level defenses that may
apply.” § 6230(c)(4). Both these provisions
assume that a penalty can relate to a
partnership-item adjustment even if the penalty
cannot be imposed without additional, partnerlevel determinations.
Id. In other words, the Court made clear that penalties
relating to partnership-item adjustments and penalties
that cannot be actually imposed without additional,
partner-level determinations are not mutually
exclusive. See id.
In sum, the Court in Woods rejected the argument
of the taxpayer Woods—i.e., “that a penalty does not
relate to a partnership-item adjustment if it requires a
partner-level determination.” Id. at 40, 134 S. Ct. at
563 (internal quotation marks omitted). The Court held
that the gross valuation-misstatement penalty at issue
there related to the determination that the
partnerships were a sham, which determination was an
adjustment to a partnership item. Id. at 39–42, 134 S.
Ct. at 563–64. Thus, the Court held that, under

App. 29
§ 6226(f), the partnership-level court at issue there had
jurisdiction over the gross valuation-misstatement
penalty because the penalty related to an adjustment
to a partnership item. Id. The Court’s reasoning
proceeded as follows. The Court first set out the issue
before it:
Under the TEFRA framework, a court in a
partnership-level proceeding like this one has
jurisdiction to determine not just partnership
items, but also “the applicability of any penalty
. . . which relates to an adjustment to a
partnership item.” § 6226(f). As both sides agree,
a determination that a partnership lacks
economic substance is an adjustment to a
partnership item. Thus, the jurisdictional
question here boils down to whether the
valuation-misstatement penalty “relates to” the
determination that the partnerships . . . created
were shams.
Id. at 39, 134 S. Ct. at 563. The Court then set out the
Government’s position:
In the Government’s view, there can be no
outside basis in a sham partnership . . . , so any
partner who underpaid his individual taxes by
declaring an outside basis greater than zero
committed a valuation misstatement. In other
words, the penalty flows logically and inevitably
from the economic-substance determination.
Id. at 39–40, 134 S. Ct. at 563. The Court next set out
the argument of taxpayer Woods:

App. 30
He maintains, in short, that a penalty does not
relate to a partnership-item adjustment if it
requires a partner-level determination,
regardless of whether or not the penalty has a
connection to a partnership item.
Id. at 40, 134 S. Ct. at 563 (internal quotation marks
omitted). The Court then noted that several provisions
in the Internal Revenue Code, including
§ 6230(a)(2)(A)(i) and § 6230(c)(4), indicate that:
A penalty can relate to a partnership-item
adjustment even if the penalty cannot be
imposed without additional partner-level
determinations.
Id. at 41, 134 S. Ct. at 564. The Court then rejected the
argument of taxpayer Woods, and held:
that TEFRA gives courts in partnership-level
proceedings jurisdiction to determine the
applicability of any penalty that could result
from an adjustment to a partnership item, even
if imposing the penalty would also require
determining affected or non-partnership items
such as outside basis. . . .
Applying the foregoing principles to this case,
we conclude that the District Court had
jurisdiction to determine the applicability of the
valuation-misstatement penalty—to determine,
that is, whether the partnerships’ lack of
economic substance (which all agree was

App. 31
properly decided at the partnership level) could
justify imposing a valuation-misstatement
penalty on the partners.
Id. at 41–42, 134 S. Ct. at 564.
Woods strongly supports what we already
determined to be unambiguous from the relevant
Internal Revenue Code provisions. The valuationmisstatement penalty at issue can be an affected item
requiring partner-level determinations while also
relating to adjustments to partnership items. Woods
directly rejects Highpoint’s argument that these
categories are mutually exclusive. Woods leaves no
doubt that the valuation-misstatement penalty at issue
is related to an adjustment to a partnership item so as
to clearly fall within § 6230(a)(2)(A)(i)’s exclusion of
such items from deficiency jurisdiction.
V. CONCLUSION
For the foregoing reasons, we conclude that the
relevant statutory provisions, applicable regulations,
and precedent—including in particular the Supreme
Court decision in Woods—indicate clearly that the
valuation-misstatement penalty at issue, which was
triggered by the partnership-level determination that
Arbitrage lacked economic substance, relates to an
adjustment to a partnership item, and thus is excluded
from the Tax Court’s deficiency jurisdiction under
§ 6230(a)(2)(A)(i). We hold that the Tax Court presiding
over partner-level deficiency proceedings did not have
jurisdiction over the valuation-misstatement penalty at

App. 32
issue.11 The Tax Court’s order denying Highpoint’s
Motion to Restrain Collection to the extent it related to
the valuation-misstatement penalty is therefore
AFFIRMED.

11

Other arguments raised by Highpoint on appeal need not be
addressed in light of our jurisdictional holding.

App. 33

APPENDIX B
UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket No. 2828-16.
[Filed November 2, 2017]
________________________
HIGHPOINT TOWER
)
TECHNOLOGY, INC., )
Petitioner(s),
)
)
v.
)
)
COMMISSIONER OF
)
INTERNAL REVENUE, )
Respondent
)
_______________________ )
ORDER
On June 9, 2016, petitioner filed a Motion to
Restrain Assessment or Collection or to Order Refund
of Amount Collected (petitioner’s motion). On
September 15, 2016, respondent filed a Motion to
Dismiss and Strike a Portion of the Proposed
Deficiency and the Entire Penalty (respondent’s
motion).
On July 17, 2017, the Court granted petitioner’s
motion as relates to the portion of the deficiency
related to the increase in capital gain income and the
disallowance of deducted fees, and denied the motion as

App. 34
relates to the penalty (July 17 order). The Court
ordered petitioner to file a response addressing the
issue whether this Court has jurisdiction over the
portion of the deficiency related to the adjustment to
other income. The Court granted respondent’s motion
in part as to the penalty.
On August 17, 2017, petitioner filed a Motion for
Reconsideration of Order and a Memorandum in
Support of Motion by Petitioner for Reconsideration of
Order Dated July 17, 2017 (petitioner’s motion for
reconsideration). In petitioner’s motion for
reconsideration, petitioner contends that this Court
retains jurisdiction over the adjustment to other
income, and reasserts its position that this Court has
jurisdiction over the penalty.
Petitioner contends that this Court retains
jurisdiction over the adjustment to other income
because “[t]he application of the at-risk rules to the
$72,053 loss (even ignoring Arbitrage) remains a
factual affected item requiring partner-level
determinations.” We disagree. The deficiency at issue
results in part from the disallowance of a $72,053 loss
that flowed directly from Arbitrage Trading, LLC
(Arbitrage). It was previously determined that
Arbitrage was a sham and any loss resulting from
transactions engaged in by Arbitrage is not allowed as
a deduction. As such, the $72,053 flow-through loss is
a computational adjustment pursuant to I.R.C. section
6231(a)(6) and not subject to deficiency proceedings
under I.R.C. section 6230(a). Accordingly, we lack
jurisdiction over the adjustment to other income.

App. 35
Petitioner encourages the Court to reconsider its
July 17 order dismissing the penalty in order “to
prevent manifest injustice.” Tax Court Rule 161 allows
the Court to reconsider its findings, opinions, and
interlocutory orders. Bedrosian v. Commissioner, 144
T.C. 152, 156 (2015). The Court will grant
reconsideration if the case of: (1) mistake,
inadvertence, surprise, or excusable neglect; (2) newly
discovered evidence; (3) fraud; (4) the judgement is
void; (5) the judgement has been satisfied, released, or
discharged; (6) manifest injustice; or (7) any other
reason that justifies relief. Id. at 156. Petitioner,
however, fails to articulate with any specificity any
injustice that may occur.
Deficiency proceedings do not apply to the
assessment of penalties determined to be applicable at
the partnership level, regardless of whether partnerlevel determinations are required to assess the penalty.
I.R.C. sec. 6230(a)(2)(A)(i); sec. 301.6231(a)(6)-1,
Proced. & Admin. Regs. In the Amended Judgment
relating to prior partnership proceeding (Arbitrage
Trading, LLC v. United States, docket No. 06-202T),
partnership items, including the application of the
penalty, were conclusively determined. See I.R.C. secs.
6221 and 6320(c)(4). As such, this Court lacks
jurisdiction over the penalty, and we stand by our
decision.
Accordingly, it is
ORDERED that petitioner’s
reconsideration is denied. It is further

motion

for

App. 36
ORDERED that respondent’s motion is granted in
full.
(Signed) Joseph Robert Goeke
Judge
Dated:

Washington, D.C.
November 2, 2017

App. 37

APPENDIX C
UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket No. 2828-16.
[Filed July 17, 2017]
________________________
HIGHPOINT TOWER
)
TECHNOLOGY, INC., )
Petitioner(s),
)
)
v.
)
)
COMMISSIONER OF
)
INTERNAL REVENUE, )
Respondent
)
_______________________ )
ORDER
Pending before the Court are petitioner’s Motion to
Restrain Assessment or Collection or to Order Refund
of Amount Collected, filed June 9, 2016 (petitioner’s
motion), and respondent’s Motion to Dismiss and to
Strike a Portion of the Proposed Deficiency and the
Entire Penalty, filed September 15, 2016 (respondent’s
motion).
This case is based upon an Affected Item Notice of
Deficiency (notice) issued to petitioner. The notice was
issued following completion of Arbitrage Trading,
LLC’s (Arbitrage) TEFRA partnership proceeding for

App. 38
tax year ended December 31, 1999. In the Amended
Judgment relating to that proceeding, the Court of
Federal Claims determined, inter alia, Arbitrage was
a sham that is properly disregarded for tax purposes,
and that the 40% gross valuation misstatement penalty
applies to any underpayment of tax attributable to the
adjustments to contribution amounts in excess of the
corrected bases. That decision became final
December 2, 2014. All adjustments and the section
66621 penalty in the notice flow from the partnership
decision.
Petitioner alleges it was premature for respondent
to assess any of the items in the notice. Respondent
agrees that we have jurisdiction over the portion of the
deficiency related to the increase in capital gain income
and the disallowance of deducted fees, and that that
portion of the assessment may be abated. Respondent
argues, however, that we lack jurisdiction over the
adjustment to other income because it is a
computational adjustment not subject to deficiency
procedures. Petitioner counters that the adjustment to
other income flowing from Arbitrage is an affected item
that relates to petitioner’s basis in Arbitrage and
requires partner-level factual determinations.
Respondent further contends that this Court has no
jurisdiction over the penalty.
Respondent contends that because Arbitrage was
formed solely for tax avoidance purposes, any loss

1

Unless otherwise indicated, all section references are to the
Internal Revenue Code of 1986, as amended, and all Rule
references are to the Tax Court Rules of Practice and Procedure.

App. 39
resulting from the transactions engaged in by
Arbitrage is disallowed as a deduction at the partner
level. As such, the adjustment to other income flowing
from Arbitrage is a computation adjustment pursuant
to section 6231(a)(6) and is not subject to deficiency
procedures under section 6230(a) because no additional
facts need to be determined at the partner-level.
Accordingly, the Court will direct petitioner to file a
response to this Order addressing which, if any,
specific factual determinations need to be made in this
partner-level proceeding to determine the adjustment
to other income.
In United States v. Woods, 134 S.Ct. 557, 565-566
(2013), the Supreme Court stated that where the
partnership is a sham, no partner-level determinations
are needed to determine outside basis because “once
the partnerships were deemed not to exist for tax
purposes, no partner could legitimately claim an
outside basis greater than zero.” See also Greenwald v.
Commissioner, 142 T.C. 308, 315 (2014). It is not
possible for petitioner to have an outside basis greater
than zero in Arbitrage, a partnership that does not
exist for tax purposes. The final decision in the
partnership-level proceeding applied the section 6662
penalty. It is well settled that the penalty may be
directly assessed as a computational adjustment that
we lack jurisdiction over, notwithstanding the need for
partner-level determinations. See sec. 6230(a)(2), (c)(4);
Woods, 571 S. Ct. at 565, n.2; Thompson v.
Commissioner, T.C. Memo. 2014-154 at *8; Logan Tr.,
616 Fed. Appx. 426 (D.C. Cir. 2015).

App. 40
Accordingly, it is
ORDERED that so much of petitioner’s motion as
relates to the portion of the deficiency related to the
increase in capital gain income and the disallowance of
deducted fees is granted and that so much of
petitioner’s motion as relates to the penalty is denied.
It is further
ORDERED that, on or before August 25, 2017,
petitioner shall file with the Court a response to this
Order addressing the issue whether this Court has
jurisdiction over the portion of the deficiency related to
the adjustment to other income. It is further
ORDERED that respondent’s motion is granted in
part as to the penalty.
(Signed) Joseph Robert Goeke
Judge
Dated:

Washington, D.C.
July 17, 2017

App. 41

APPENDIX D
26 U.S.C. § 6213(a). Restrictions applicable to
deficiencies; petition to Tax Court
(a) Time for filing petition and restriction on
assessment
Within 90 days, or 150 days if the notice is addressed
to a person outside the United States, after the notice
of deficiency authorized in section 6212 is mailed (not
counting Saturday, Sunday, or a legal holiday in the
District of Columbia as the last day), the taxpayer may
file a petition with the Tax Court for a redetermination
of the deficiency. Except as otherwise provided in
section 6851, 6852, or 6861 no assessment of a
deficiency in respect of any tax imposed by subtitle A,
or B, chapter 41, 42, 43, or 44 and no levy or proceeding
in court for its collection shall be made, begun, or
prosecuted until such notice has been mailed to the
taxpayer, nor until the expiration of such 90-day or
150-day period, as the case may be, nor, if a petition
has been filed with the Tax Court, until the decision of
the Tax Court has become final. Notwithstanding the
provisions of section 7421(a), the making of such
assessment or the beginning of such proceeding or levy
during the time such prohibition is in force may be
enjoined by a proceeding in the proper court, including
the Tax Court, and a refund may be ordered by such
court of any amount collected within the period during
which the Secretary is prohibited from collecting by
levy or through a proceeding in court under the

App. 42
provisions of this subsection. The Tax Court shall have
no jurisdiction to enjoin any action or proceeding or
order any refund under this subsection unless a timely
petition for a redetermination of the deficiency has
been filed and then only in respect of the deficiency
that is the subject of such petition. Any petition filed
with the Tax Court on or before the last date specified
for filing such petition by the Secretary in the notice of
deficiency shall be treated as timely filed.

App. 43
26 U.S.C. § 6214(a). Determinations by Tax
Court
(a) Jurisdiction as to increase of deficiency,
additional amounts, or additions to the tax
Except as provided by section 7463, the Tax Court shall
have jurisdiction to redetermine the correct amount of
the deficiency even if the amount so redetermined is
greater than the amount of the deficiency, notice of
which has been mailed to the taxpayer, and to
determine whether any additional amount, or any
addition to the tax should be assessed, if claim therefor
is asserted by the Secretary at or before the hearing or
a rehearing.

App. 44
26 U.S.C. § 6230(a). Additional administrative
provisions
(a) Coordination with deficiency proceedings.-(1) In general.–Except as provided in paragraph
(2) or (3), subchapter B of this chapter shall not
apply to the assessment or collection of any
computational adjustment.
(2) Deficiency proceedings to apply in certain
cases.–
(A) Subchapter B shall apply to any deficiency
attributable to–
(i) affected items which require partner level
determinations (other than penalties,
additions to tax, and additional amounts that
relate to adjustments to partnership items),
or
(ii) items which have become nonpartnership
items (other than by reason of section
6231(b)(1)(C)) and are described in section
6231(e)(1)(B).
(B) Subchapter B shall be applied separately
with respect to each deficiency described in
subparagraph (A) attributable to each
partnership.
(C) Notwithstanding any other law or rule of
law, any notice or proceeding under subchapter
B with respect to a deficiency described in this
paragraph shall not preclude or be precluded by
any other notice, proceeding, or determination

App. 45
with respect to a partner’s tax liability for a
taxable year.
(3) Special rule in case of assertion by
partner’s spouse of innocent spouse relief.–
(A) Notwithstanding section 6404(b), if the
spouse of a partner asserts that section 6015
applies with respect to a liability that is
attributable to any adjustment to a partnership
item (including any liability for any penalties,
additions to tax, or additional amounts relating
to such adjustment), then such spouse may file
with the Secretary within 60 days after the
notice of computational adjustment is mailed to
the spouse a request for abatement of the
assessment specified in such notice. Upon
receipt of such request, the Secretary shall abate
the assessment. Any reassessment of the tax
with respect to which an abatement is made
under this subparagraph shall be subject to the
deficiency procedures prescribed by subchapter
B. The period for making any such reassessment
shall not expire before the expiration of 60 days
after the date of such abatement.
(B) If the spouse files a petition with the Tax Court
pursuant to section 6213 with respect to the request
for abatement described in subparagraph (A), the
Tax Court shall only have jurisdiction pursuant to
this section to determine whether the requirements
of section 6015 have been satisfied. For purposes of
such determination, the treatment of partnership
items (and the applicability of any penalties,
additions to tax, or additional amounts) under the

App. 46
settlement, the final partnership administrative
adjustment, or the decision of the court (whichever
is appropriate) that gave rise to the liability in
question shall be conclusive.
(C) Rules similar to the rules contained in
subparagraphs (B) and (C) of paragraph (2) shall
apply for purposes of this paragraph.

App. 47
26 U.S.C. § 6330(a)-(d). Notice and opportunity
for hearing before levy
(a) Requirement of notice before levy
(1) In general
No levy may be made on any property or right to
property of any person unless the Secretary has
notified such person in writing of their right to a
hearing under this section before such levy is made.
Such notice shall be required only once for the
taxable period to which the unpaid tax specified in
paragraph (3)(A) relates.
(2) Time and method for notice
The notice required under paragraph (1) shall be—
(A) given in person;
(B) left at the dwelling or usual place of
business of such person; or
(C) sent by certified or registered mail, return
receipt requested, to such person’s last known
address;
not less than 30 days before the day of the first
levy with respect to the amount of the unpaid
tax for the taxable period.
(3) Information included with notice The notice
required under paragraph (1) shall include in
simple and nontechnical terms—
(A) the amount of unpaid tax;

App. 48
(B) the right of the person to request a hearing
during the 30-day period under paragraph (2);
and
(C) the proposed action by the Secretary and the
rights of the person with respect to such action,
including a brief statement which sets forth—
(i) the provisions of this title relating to levy
and sale of property;
(ii) the procedures applicable to the levy and
sale of property under this title;
(iii) the administrative appeals available to
the taxpayer with respect to such levy and
sale and the procedures relating to such
appeals;
(iv) the alternatives available to taxpayers
which could prevent levy on property
(including installment agreements under
section 6159); and
(v) the provisions of this title and procedures
relating to redemption of property and
release of liens on property.
(b) Right to fair hearing
(1) In general
If the person requests a hearing in writing under
subsection (a)(3)(B) and states the grounds for the
requested hearing, such hearing shall be held by the
Internal Revenue Service Independent Office of
Appeals.

App. 49
(2) One hearing per period
A person shall be entitled to only one hearing under
this section with respect to the taxable period to
which the unpaid tax specified in subsection
(a)(3)(A) relates.
(3) Impartial officer
The hearing under this subsection shall be
conducted by an officer or employee who has had no
prior involvement with respect to the unpaid tax
specified in subsection (a)(3)(A) before the first
hearing under this section or section 6320. A
taxpayer may waive the requirement of this
paragraph.
(c) Matters considered at hearing In the case of any
hearing conducted under this section—
(1) Requirement of investigation
The appeals officer shall at the hearing obtain
verification from the Secretary that the
requirements of any applicable law or
administrative procedure have been met.
(2) Issues at hearing
(A) In general The person may raise at the
hearing any relevant issue relating to the
unpaid tax or the proposed levy, including—
(i) appropriate spousal defenses;
(ii) challenges to the appropriateness of
collection actions; and

App. 50
(iii) offers of collection alternatives, which
may include the posting of a bond, the
substitution of other assets, an installment
agreement, or an offer-in-compromise.
(B) Underlying liability
The person may also raise at the hearing
challenges to the existence or amount of the
underlying tax liability for any tax period if the
person did not receive any statutory notice of
deficiency for such tax liability or did not
otherwise have an opportunity to dispute such
tax liability.
(3) Basis for the determination The
determination by an appeals officer under this
subsection shall take into consideration—
(A) the verification presented under paragraph
(1);
(B) the issues raised under paragraph (2); and
(C) whether any proposed collection action
balances the need for the efficient collection of
taxes with the legitimate concern of the person
that any collection action be no more intrusive
than necessary.
(4) Certain issues precluded An issue may not be
raised at the hearing if—

App. 51
(A)
(i) the issue was raised and considered at a
previous hearing under section 6320 or in
any other previous administrative or judicial
proceeding; and
(ii) the person seeking to raise the issue
participated meaningfully in such hearing or
proceeding;
(B) the issue meets the requirement of clause (i)
or (ii) of section 6702(b)(2)(A); or
(C) a final determination has been made with
respect to such issue in a proceeding brought
under subchapter C of chapter 63.
This paragraph shall not apply to any issue with
respect to which subsection (d)(3)(B) applies.
(d) Proceeding after hearing
(1) Petition for review by Tax Court
The person may, within 30 days of a determination
under this section, petition the Tax Court for review
of such determination (and the Tax Court shall
have jurisdiction with respect to such matter).
(2) Suspension of running of period for filing
petition in title 11 cases
In the case of a person who is prohibited by reason
of a case under title 11, United States Code, from
filing a petition under paragraph (1) with respect to
a determination under this section, the running of
the period prescribed by such subsection for filing

App. 52
such a petition with respect to such determination
shall be suspended for the period during which the
person is so prohibited from filing such a petition,
and for 30 days thereafter.
(3) Jurisdiction retained at IRS Independent
Office of Appeals The Internal Revenue Service
Independent Office of Appeals shall retain
jurisdiction with respect to any determination made
under this section, including subsequent hearings
requested by the person who requested the original
hearing on issues regarding—
(A) collection actions taken or proposed with
respect to such determination; and
(B) after the person has exhausted all
administrative remedies, a change in
circumstances with respect to such person which
affects such determination.

App. 53
26 U.S.C. § 6662 (1999)
§ 6662. Imposition of accuracy-related penalty
(a) Imposition of penalty.--If this section applies to
any portion of an underpayment of tax required to be
shown on a return, there shall be added to the tax an
amount equal to 20 percent of the portion of the
underpayment to which this section applies.
(b) Portion of underpayment to which section
applies.--This section shall apply to the portion of any
underpayment which is attributable to 1 or more of the
following:
(1) Negligence or disregard of rules or regulations.
(2) Any substantial understatement of income tax.
(3) Any substantial valuation misstatement under
chapter 1.
(4) Any substantial overstatement of pension
liabilities.
(5) Any substantial estate or gift tax valuation
understatement.
This section shall not apply to any portion of an
underpayment on which a penalty is imposed under
section 6663.
(c) Negligence.--For purposes of this section, the term
“negligence” includes any failure to make a reasonable
attempt to comply with the provisions of this title, and
the term “disregard” includes any careless, reckless, or
intentional disregard.

App. 54
(d) Substantial understatement of income tax.-(1) Substantial understatement.-(A) In general.--For purposes of this section,
there is a substantial understatement of income
tax for any taxable year if the amount of the
understatement for the taxable year exceeds the
greater of-(i) 10 percent of the tax required to be shown
on the return for the taxable year, or
(ii) $5,000.
(B) Special rule for corporations.--In the
case of a corporation other than an S corporation
or a personal holding company (as defined in
section 542), paragraph (1) shall be applied by
substituting “$10,000” for “$5,000”.
(2) Understatement.-(A) In general.--For purposes of paragraph (1),
the term “understatement” means the excess of-(i) the amount of the tax required to be
shown on the return for the taxable year,
over
(ii) the amount of the tax imposed which is
shown on the return, reduced by any rebate
(within the meaning of section 6211(b)(2)).

App. 55
(B) Reduction for understatement due to
position of taxpayer or disclosed item.--The
amount of the understatement under
subparagraph (A) shall be reduced by that
portion of the understatement which is
attributable to-(i) the tax treatment of any item by the
taxpayer if there is or was substantial
authority for such treatment, or
(ii) any item if-(I) the relevant facts affecting the item’s
tax treatment are adequately disclosed in
the return or in a statement attached to
the return, and
(II) there is a reasonable basis for the tax
treatment of such item by the taxpayer.
For purposes of clause (ii)(II), in no event shall
a corporation be treated as having a reasonable
basis for its tax treatment of an item
attributable to a multiple-party financing
transaction if such treatment does not clearly
reflect the income of the corporation.
(C) Special rules in cases involving tax
shelters.-(i) In general.--In the case of any item of a
taxpayer other than a corporation which is
attributable to a tax shelter-(I) subparagraph (B)(ii) shall not apply,
and

App. 56
(II) subparagraph (B)(i) shall not apply
unless (in addition to meeting the
requirements of such subparagraph) the
taxpayer reasonably believed that the tax
treatment of such item by the taxpayer
was more likely than not the proper
treatment.
(ii) Subparagraph (B) not to apply to
corporations.--Subparagraph (B) shall not
apply to any item of a corporation which is
attributable to a tax shelter.
(iii) Tax shelter.--For purposes of this
subparagraph, the term “tax shelter” means-(I) a partnership or other entity,
(II) any investment plan or arrangement,
or
(III) any other plan or arrangement,
if a significant purpose of such
partnership, entity, plan, or arrangement
is the avoidance or evasion of Federal
income tax.
(D) Secretarial list.--The Secretary shall
prescribe (and revise not less frequently than
annually) a list of positions-(i) for which the Secretary believes there is
not substantial authority, and
(ii) which affect a significant number of
taxpayers.

App. 57
Such list (and any revision thereof) shall be
published in the Federal Register.
(e) Substantial valuation misstatement under
chapter 1.-(1) In general.--For purposes of this section, there
is a substantial valuation misstatement under
chapter 1 if-(A) the value of any property (or the adjusted
basis of any property) claimed on any return of
tax imposed by chapter 1 is 200 percent or more
of the amount determined to be the correct
amount of such valuation or adjusted basis (as
the case may be), or
(B)(i) the price for any property or services (or
for the use of property) claimed on any such
return in connection with any transaction
between persons described in section 482 is 200
percent or more (or 50 percent or less) of the
amount determined under section 482 to be the
correct amount of such price, or
(ii) the net section 482 transfer price adjustment
for the taxable year exceeds the lesser of
$5,000,000 or 10 percent of the taxpayer’s gross
receipts.
(2) Limitation.--No penalty shall be imposed by
reason of subsection (b)(3) unless the portion of the
underpayment for the taxable year attributable to
substantial valuation misstatements under chapter
1 exceeds $5,000 ($10,000 in the case of a
corporation other than an S corporation or a

App. 58
personal holding company (as defined in section
542)).
(3) Net section 482 transfer price adjustment.-For purposes of this subsection-(A) In general.--The term “net section 482
transfer price adjustment” means, with respect
to any taxable year, the net increase in taxable
income for the taxable year (determined without
regard to any amount carried to such taxable
year from another taxable year) resulting from
adjustments under section 482 in the price for
any property or services (or for the use of
property).
(B) Certain adjustments excluded in
determining threshold.--For purposes of
det ermining whether t he t hreshol d
requirements of paragraph (1)(B)(ii) are met, the
following shall be excluded:
(i) Any portion of the net increase in taxable
income referred to in subparagraph (A) which
is attributable to any redetermination of a
price if-(I) it is established that the taxpayer
determined such price in accordance with
a specific pricing method set forth in the
regulations prescribed under section 482
and that the taxpayer’s use of such
method was reasonable,

App. 59
(II) the taxpayer has documentation
(which was in existence as of the time of
filing the return) which sets forth the
determination of such price in accordance
with such a method and which establishes
that the use of such method was
reasonable, and
(III) the taxpayer provides such
documentation to the Secretary within 30
days of a request for such documentation.
(ii) Any portion of the net increase in taxable
income referred to in subparagraph (A) which
is attributable to a redetermination of price
where such price was not determined in
accordance with such a specific pricing
method if-(I) the taxpayer establishes that none of
such pricing methods was likely to result
in a price that would clearly reflect
income, the taxpayer used another pricing
method to determine such price, and such
other pricing method was likely to result
in a price that would clearly reflect
income,
(II) the taxpayer has documentation
(which was in existence as of the time of
filing the return) which sets forth the
determination of such price in accordance
with such other method and which
establishes that the requirements of
subclause (I) were satisfied, and

App. 60
(III) the taxpayer provides such
documentation to the Secretary within
30 days of request for such
documentation.
(iii) Any portion of such net increase which
is attributable to any transaction solely
between foreign corporations unless, in the
case of any such corporations, the treatment
of such transaction affects the determination
of income from sources within the United
States or taxable income effectively
connected with the conduct of a trade or
business within the United States.
(C) Special rule.--If the regular tax (as defined
in section 55(c)) imposed by chapter 1 on the
taxpayer is determined by reference to an
amount other than taxable income, such amount
shall be treated as the taxable income of such
taxpayer for purposes of this paragraph.
(D) Coordination with reasonable cause
exception.--For purposes of section 6664(c) the
taxpayer shall not be treated as having
reasonable cause for any portion of an
underpayment attributable to a net section 482
transfer price adjustment unless such taxpayer
meets the requirements of clause (i), (ii), or (iii)
of subparagraph (B) with respect to such
portion.

App. 61
(f) Substantial
liabilities.--

overstatement

of

pension

(1) In general.--For purposes of this section, there
is a substantial overstatement of pension liabilities
if the actuarial determination of the liabilities taken
into account for purposes of computing the
deduction under paragraph (1) or (2) of section
404(a) is 200 percent or more of the amount
determined to be the correct amount of such
liabilities.
(2) Limitation.--No penalty shall be imposed by
reason of subsection (b)(4) unless the portion of the
underpayment for the taxable year attributable to
substantial overstatements of pension liabilities
exceeds $1,000.
(g) Substantial estate or gift tax valuation
understatement.-(1) In general.--For purposes of this section, there
is a substantial estate or gift tax valuation
understatement if the value of any property claimed
on any return of tax imposed by subtitle B is
50 percent or less of the amount determined to be
the correct amount of such valuation.
(2) Limitation.--No penalty shall be imposed by
reason of subsection (b)(5) unless the portion of the
underpayment attributable to substantial estate or
gift tax valuation understatements for the taxable
period (or, in the case of the tax imposed by chapter
11, with respect to the estate of the decedent)
exceeds $5,000.

App. 62
(h) Increase in penalty in case of gross valuation
misstatements.—
(1) In general.--To the extent that a portion of the
underpayment to which this section applies is
attributable to one or more gross valuation
misstatements, subsection (a) shall be applied with
respect to such portion by substituting “40 percent”
for “20 percent”.
(2) Gross valuation misstatements.--The term
“gross valuation misstatements” means-(A) any substantial valuation misstatement
under chapter 1 as determined under subsection
(e) by substituting-(i) “400 percent” for “200 percent” each place
it appears,
(ii) “25 percent” for “50 percent”, and
(iii) in paragraph (1)(B)(ii)-(I) “$20,000,000” for “$5,000,000”, and
(II) “20 percent” for “10 percent”.
(B) any substantial overstatement of pension
liabilities as determined under subsection (f) by
substituting “400 percent” for “200 percent”,
and
(C) any substantial estate or gift tax valuation
understatement as determined under subsection
(g) by substituting “25 percent” for “50 percent”.

App. 63
26 U.S.C. § 6664 (1999)
§ 6664. Definitions and special rules
(a) Underpayment.--For purposes of this part, the
term “underpayment” means the amount by which any
tax imposed by this title exceeds the excess of-(1) the sum of–
(A) the amount shown as the tax by the
taxpayer on his return, plus
(B) amounts not so shown previously assessed
(or collected without assessment), over
(2) the amount of rebates made.
For purposes of paragraph (2), the term “rebate” means
so much of an abatement, credit, refund, or other
repayment, as was made on the ground that the tax
imposed was less than the excess of the amount
specified in paragraph (1) over the rebates previously
made.
(b) Penalties applicable only where return filed.-The penalties provided in this part shall apply only in
cases where a return of tax is filed (other than a return
prepared by the Secretary under the authority of
section 6020(b)).
(c) Reasonable cause exception.-(1) In general.--No penalty shall be imposed under
this part with respect to any portion of an
underpayment if it is shown that there was a
reasonable cause for such portion and that the

App. 64
taxpayer acted in good faith with respect to such
portion.
(2) Special rule for certain valuation
overstatements.--In the case of any underpayment
attributable to a substantial or gross valuation
overstatement under chapter 1 with respect to
charitable deduction property, paragraph (1) shall
not apply unless-(A) the claimed value of the property was based
on a qualified appraisal made by a qualified
appraiser, and
(B) in addition to obtaining such appraisal, the
taxpayer made a good faith investigation of the
value of the contributed property.
(3) Definitions.--For purposes of this subsection-(A) Charitable deduction property.--The
term “charitable deduction property” means any
property contributed by the taxpayer in a
contribution for which a deduction was claimed
under section 170. For purposes of paragraph
(2), such term shall not include any securities for
which (as of the date of the contribution) market
quotations are readily available on an
established securities market.
(B) Qualified appraiser.--The term “qualified
appraiser” means any appraiser meeting the
requirements of the regulations prescribed
under section 170(a)(1).

App. 65
(C) Qualified appraisal.--The term “qualified
appraisal” means any appraisal meeting the
requirements of the regulations prescribed
under section 170(a)(1).

